Department of Homeland Security
   Ofﬁce of Inspector General

            U.S. Coast Guard's Plan to Improve 

                 Deepwater Accountability 


                      (Letter Report) 





OIG-09-75                                     June 2009
                                                           Office of Inspector General

                                                           U.S. Department of Homeland Security
                                                           Washington, DC 20528




                                      May 29, 2009


MEMORANDUM FOR: 	              The Honorable Admiral Thad W. Allen
                               Commandant
                               United States Coast Guard


FROM: 	                        Richard L. Skinner
                               Inspector General

SUBJECT:	                      Letter Report: U.S. Coast Guard’s Plans to Improve
                               Deepwater Accountability (OIG-09-75)

In response to a congressional request, we initiated a review of the U.S. Coast Guard’s
plans to hold Integrated Coast Guard Systems, the prime contractor for the Integrated
Deepwater System Program (Deepwater), accountable for problems associated with the
acquisition of five assets: the National Security Cutter, the 110'/123' Patrol Boat, the Fast
Response Cutter, the Short-Range Prosecutor, and the Vertical-Takeoff-and-Landing
Unmanned Aerial Vehicle.

The Coast Guard plans to recoup funds from acquisitions of the 110'/123' Patrol Boat and
the Short-Range Prosecutor, whose design and performance did not meet minimum
Deepwater contract and mission requirements. Problems with those two acquisitions
included structural design flaws and installation of nonconforming communications
equipment. The Coast Guard will not seek to recoup funds related to acquisitions of the
National Security Cutter, Fast Response Cutter, and Vertical-Takeoff-and-Landing
Unmanned Aerial Vehicle. In the case of the National Security Cutter, the Coast Guard
chose to renegotiate the contract to reach terms more favorable to the U.S. government
for proceeding with the acquisition. The contractor met the terms of the Fast Response
Cutter contract, but the design of the asset did not meet the Coast Guard’s mission
requirements. The Coast Guard canceled the Vertical-Takeoff-and-Landing Unmanned
Aerial Vehicle acquisition because the asset lacked technical maturity and because cost
estimates exceeded available funding.

Should you have any questions, please call me, or your staff may contact Anne L.
Richards, Assistant Inspector General for Audits, at (202) 254-4100.




                                             1

Background

In June 2002, the Coast Guard awarded Integrated Coast Guard Systems an initial 5­
year base term contract to serve as the Deepwater systems integrator. The Coast Guard
has since invested more than $1.8 billion to acquire the following five assets to help
accomplish the Deepwater mission:

       •	 $1.6 billion for the National Security Cutter, the flagship of the U.S. Coast
          Guard’s Deepwater cutter fleet, capable of executing the most challenging
          maritime security, drug and migrant interdiction, and search and rescue
          missions.

       •	 $87 million for the 110'/123' Patrol Boat Modernization Project, which
          involved lengthening the boats to accommodate the launching of the new
          Short-Range Prosecutor from the stern rather than over the side, and
          modernizing them through extensive superstructure improvements and
          advanced electronics, communication, and navigation systems.

       •	 $40 million for the design of the Fast Response Cutter, intended to replace the
          Coast Guard’s 110'/123' Patrol Boat fleet with cutters of greater operational
          endurance.

       •	 $3 million for the Short Range Prosecutor, a rigid-hull inflatable small boat
          designed for use aboard the 123' Patrol Boat, the Fast Response Cutter, the
          National Security Cutter, and other Deepwater surface assets.

       •	 $93 million for the Vertical-Takeoff-and-Landing Unmanned Aerial Vehicle,
          with outstanding obligations totaling $11 million, of which some will be
          deobligated as part of the contract closeout procedure. This asset was
          intended to enable the Coast Guard to surveil, detect, classify, and identify
          targets of interest operating beyond the visual range of the new and legacy
          flight deck-equipped cutters.

Because of problems encountered in their development, construction, and testing phases,
these acquisitions were canceled, modified, or accelerated, in some instances creating or
increasing gaps in the Coast Guard’s operational capacity to accomplish its offshore
missions. The Coast Guard was left to determine what funds, if any, it could recoup from
the contractor for the unsuccessful acquisition efforts.

Review Results

The Coast Guard plans to recoup funds from efforts to acquire two of the five Deepwater
assets—the 110'/123' Patrol Boat and the Short-Range Prosecutor—whose design and
performance did not meet minimum Deepwater contract and mission requirements.




                                            2                                               

Problems with these assets included structural design flaws and installation of
nonconforming communications equipment.

Specifically, shortly after the delivery of the first 123' Patrol Boat in March 2004, the
Coast Guard discovered deformation and cracks in the hull. Similar structural problems
were subsequently reported on the other seven 123' Patrol Boats. In November 2006, the
Coast Guard announced that it would suspend operations of all eight 123' patrol boats
pending assessment of the problem and how best to address it. In 2007, the Coast Guard
revoked acceptance of the eight existing 123' Patrol Boats and canceled other planned
acquisitions. The Coast Guard now intends to recoup an estimated $96 million in
damages from the contractor for the structural problems with the eight 110'/123' Patrol
Boats.

The Coast Guard plans to pursue recoupment for all communications equipment
deficiencies on the Short-Range Prosecutor. The maximum recoupment is estimated to
be $26,000 per Short-Range Prosecutor. As of March 2009, two of the Short-Range
Prosecutors had been modified and are in use: One is deployed aboard National Security
Cutter-1, the CGC Bertholf, and the other is at the Project Resident Office Gulf Coast in
Pascagoula, Mississippi, for as-needed testing. The remaining six Short-Range
Prosecutors are in storage at the Coast Guard Yard in Baltimore, Maryland. There are
plans to modify three of these six vessels for use aboard National Security Cutter-2, the
CGC Waesche, in 2009.

The Coast Guard will not seek recoupment for issues related to the following three
Deepwater assets, which also experienced technical and structural problems even though
the contract terms were met:

       National Security Cutter: The Coast Guard identified structural changes to
       address design issues associated with the first two National Security Cutters. If
       left uncorrected, these issues could result in fatigue cracks, significantly increased
       maintenance costs, and reduced service life. Structural changes to National
       Security Cutters 1 and 2 will be made after delivery. The Coast Guard also
       renegotiated the contracts for the first two National Security Cutters and thus
       resolved outstanding contracting actions estimated at $300 million, added
       incentives for the contractor to control costs, and aligned the contracts more
       closely with U.S. Navy best shipbuilding practices. For National Security Cutters
       3 to 8, design modifications have been identified for completion during the
       production phase.

       Fast Response Cutter: Given the development risks involved, the Coast Guard
       canceled acquisition of the Fast Response Cutter. According to the Coast Guard,
       the cutter design satisfied contract terms but did not meet Deepwater mission
       needs. Based on independent assessments conducted in March 2006, the
       composite hull weight and propulsion plant capacity were not consistent with
       inservice patrol boats of comparable length, speed, and range. As an alternative,
       the Coast Guard has initiated a dual strategy involving production of steel hull



                                             3                                                  

       cutters and postponed acquisition of composite hull cutters until their
       development risk is significantly reduced.
       Vertical-Takeoff-and-Landing Unmanned Aerial Vehicle: In June 2007, the
       Coast Guard terminated this acquisition before receiving any operational aircraft.
       The contractor met the terms of the contract through critical design review and
       initiation of the systems development phase. The Coast Guard canceled the
       acquisition because the asset lacked technical maturity and because cost estimates
       exceeded available funding.

The Coast Guard continues its efforts to recoup funds for the 110'/123' Patrol Boat
Modernization Program and the Short-Range Prosecutor. It is moving forward with the
production of National Security Cutters under a contract that it has determined to be more
favorable to the U.S. government. Finally, in light of the cancellation of the Fast
Response Cutter acquisition, the Coast Guard is pursuing an alternative cutter to meet its
unique mission requirements.




                                            4                                                

Appendix A
Major Contributors to This Report



                   Richard Johnson, Director
                   Bradley Mosher, Audit Manager
                   Andrea Rambow, Program Analyst
                   Lorinda Couch, Program Analyst
                   Marisa Martinez, Program Analyst




                                      5               

Appendix B
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Acting General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Chief Information Officer, DHS
                      Chief Information Security Officer, DHS
                      DHS Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                                            6                                     

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
